APPLICATION AND
SOLICITATION
DISCLOSURE

Platinum Visa 1

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

Platinum Visa

9.99% to 17.99% , based on your creditworthiness.
Platinum Visa Rewards

13.99%
Share Secured Visa Platinum

17.99%
Global Good

9.99% to 17.99% , based on your creditworthiness.
APR for Balance Transfers

Platinum Visa
9.99% to 17.99% , based on your creditworthiness.
Platinum Visa Rewards
13.99%
Share Secured Visa Platinum
17.99%

APR for Cash Advances

Global Good
9.99% to 17.99% , based on your creditworthiness.
Platinum Visa
9.99% to 17.99% , based on your creditworthiness.
Platinum Visa Rewards
13.99%
Share Secured Visa Platinum
17.99%
Global Good
9.99% to 17.99% , based on your creditworthiness.

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.

For Credit Card Tips from the
Consumer Financial Protection Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

01301041-MXC10-C-1-061819 (MXC101-E)

Fees
Transaction Fees
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

$5.00 or 4.00% of the amount of each cash advance, whichever is greater
1.00% of each multiple currency transaction in U.S. dollars
0.80% of each single currency transaction in U.S. dollars
Up to $25.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Effective Date:
The information about the costs of the card described in this application is accurate as of: 4/15/2020
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Platinum Visa, Platinum Visa Rewards, Share Secured Visa Platinum and Global
Good are secured credit cards. Credit extended under this credit card account is secured by various personal
property and money including, but not limited to: (a) any goods you purchase with this account, (b) any shares
you specifically pledge as collateral for this account on a separate Pledge of Shares, (c) all shares you have in
any individual or joint account with the Credit Union excluding shares in an Individual Retirement Account or in
any other account that would lose special tax treatment under state or federal law, and (d) collateral securing
other loans you have with the Credit Union excluding dwellings. Notwithstanding the foregoing, you
acknowledge and agree that during any periods when you are a covered borrower under the Military Lending Act
your credit card will be secured by any specific Pledge of Shares you grant us but will not be secured by all
shares you have in any individual or joint account with the Credit Union. For clarity, you will not be deemed a
covered borrower if: (i) you establish your credit card account when you are not a covered borrower; or (ii) you
cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less, if you are 14 or more days late in making a
payment.
Cash Advance Fee (Finance Charge):
$5.00 or 4.00% of the amount of each cash advance, whichever is greater.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Global Good: Inova Federal Credit Union will donate 15.00% of the interchange fee on every purchase you make to the
Worldwide Foundation for Credit Unions. Donations from your purchases help provide access to the financial building
blocks needed to support families and strengthen economies in communities around the world.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

01301041-MXC10-C-1-061819 (MXC101-E)

